Audit
Report
                ARMED SERVICES BLOOD PROGRAM
                DEFENSE BLOOD STANDARD SYSTEM


Report No. D-2002-010                           October 22, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASBPO                 Armed Services Blood Program Office
CHCS                  Composite Health Care System
CITPO                 Clinical Information Technology Program Office
DBSS                  Defense Blood Standard System
FDA                   Food and Drug Administration
JMAR                  Joint Medical Asset Repository
TDBSS                 Theater Defense Blood Standard System
TMSSC                 Tri-Service Medical System Support Center
                       Office of the Inspector General, DoD
Report No. D-2002-010                                               October 22, 2001
  (Project No. D2000LF-0028.001)
  (Formerly Project No. 0LF-0106)

                         Armed Services Blood Program
                         Defense Blood Standard System

                                    Executive Summary

Introduction. This report is the second in a series regarding the Armed Services Blood
Program. The mission of the Armed Services Blood Program is to provide quality
blood products, blood substitutes, and services for all worldwide DoD customers in
peacetime, in wartime, and during contingency operations.

The Defense Blood Standard System (DBSS) is the automated information system used
by Blood Program Organizations to maintain and track blood donations and blood
product inventories. It provides blood product management for fresh and frozen blood
products during blood collection, processing, testing, shipping, and storage. It also
provides transfusion service management and system administration. DBSS is unique
because it is the only automated information system within the Military Health System
that is regulated by the Food and Drug Administration as a Class II Medical Device.
The Class II Medical Device designation gives the Food and Drug Administration the
authority to inspect the development and use of DBSS.

The DBSS Project Office, under the Clinical Information Technology Program Office,
Office of the Assistant Secretary of Defense (Health Affairs), is responsible for
managing the system. Management and support costs for DBSS for FYs 1991 through
2000 totaled $70.1 million. Projected costs for FYs 2001 through 2007 are
$43.8 million.

Objectives. The overall objective of the audit was to determine whether the
management and administration of the Armed Services Blood Program was adequate to
ensure quality blood products were properly handled and controlled during peacetime
and wartime. This report addresses the automated information systems supporting the
Armed Services Blood Program. The previous audit addressed readiness issues. We
also reviewed the adequacy of the management control programs of the TRICARE
Management Activity and the offices of the Surgeons General, as they applied to the
audit objective.

Results. Implementation of DBSS was not adequate to meet all user and mission needs
of the Armed Services Blood Program. DBSS did not provide the elements necessary
to fully support blood program operations. As a result, use of DBSS could adversely
affect asset accountability, increase the workload at Blood Program Organizations,
increase the risk of blood inventory errors, and could possibly result in the
inappropriate release of blood products (finding A).
The deployment and use of DBSS was not consistent throughout DoD. Two different
versions of DBSS were in operation simultaneously. The interface to the Composite
Health Care System was only being used at 46 percent of the fixed facilities, and only
54 percent of the Theater DBSS laptops were ready for use. In addition, reporting to
the Joint Medical Asset Repository through DBSS and Theater DBSS was not complete.
As a result, standardized blood product management was not achieved, workload for
Blood Program Offices and Organizations increased, and DoD might not achieve total
asset visibility of blood products (finding B). See Appendix A for details on our review
of the management control program.

Summary of Recommendations. We recommend that the Director, Armed Services
Blood Program Office, establish a plan to ensure that original key functional
requirements are incorporated into DBSS. We recommend that the DBSS Project
Office establish management controls to ensure system requests are processed
completely and timely and trouble tickets are reviewed for compliance with
performance standards and trends of system problems. Further, we recommend that
procedures be established to ensure tracking of system request information is complete,
mobile server users are supported, trouble ticket processing information is provided,
and computer-based training reflects current DBSS functionality. We also recommend
that the DBSS and Joint Medical Asset Repository Project Offices modify their systems
to ensure in-transit inventory is not counted twice. We recommend that the Surgeons
General establish an annual competency assessment program for system administrators
and develop a tri-Service system administrator training program. In addition, we
recommend that the Service Blood Program Offices establish policy requiring
deployment plans for future DBSS upgrades and have a DBSS reporting capability at all
facilities that maintain or transfuse blood products. Additionally, we recommend that
the Service Blood Program Offices establish time frames for implementing the latest
DBSS software and update the blood program policies to include the requirement to use
DBSS at all Blood Program Organizations. We also recommend that the Blood
Program Offices jointly develop and implement plans to correct the problems with the
Composite Health Care System interface and the Theater DBSS implementation.

Management Actions. The Office of the Assistant Secretary of Defense (Health
Affairs) took action to correct several problems identified by our audit. In March,
personnel reviewed most of the outstanding system requests. Three of the five original
requirements have been funded for development beginning in FY 2002. A new contract
was awarded in June 2001 to provide support services to users of Military Health
Service systems, including DBSS. In addition, a survey will be prepared to identify
reports that could be beneficial to all DBSS users. The DBSS Project Office modified
the standard operating procedure regarding review of system requests to include the
requirement for impact analyses, and readiness representation was added to the review
committee. Additionally, the DBSS Project Office began preparing quarterly
performance review reports of technical support.

Management Comments. The Air Force partially concurred with the findings of our
report and the Office of the Assistant Secretary of Defense (Health Affairs), the Armed
Services Blood Program Office, the Army, the Navy, and the Air Force generally
concurred with our recommendations. The Armed Services Blood Program Office
agreed to validate and prioritize the remaining original functional requirements for
incorporation into DBSS. The Assistant Secretary has developed standard operating
procedures for processing system requests and trouble tickets, has established quality


                                           ii
checks, and has developed a procedure to provide trouble ticket information to the users
and system administrators. Further, the Assistant Secretary will provide computer-
based training with each major release of DBSS and the next major release will contain
a correction to ensure in-transit inventory is not counted twice. The Assistant Secretary
nonconcurred with our recommendation to provide a spares program for mobile servers
and workstations, stating that he is reviewing alternative solutions to address the issue.
The Army and the Navy concurred with the recommendation to develop competency
assessments for DBSS system administrators; however, the Air Force nonconcurred,
stating that the DBSS computer-based training provided an adequate assessment tool.
The Army and the Navy concurred with the recommendation to develop a tri-Service
system administrator training program; however, neither agreed to consolidate their
programs. The Air Force nonconcurred, stating that the Navy program is a defacto
tri-Service training program.

The Service Blood Program Offices concurred with the recommendation to establish
policy requiring deployment plans for future DBSS upgrades, to establish a time frame
for implementing the latest DBSS version, and to update the blood program policies to
require the use of DBSS. The Air Force nonconcurred with the recommendation to
provide a DBSS reporting capability at all facilities that maintain or transfuse blood
products, stating that not all facilities need to use DBSS. The Service Blood Program
Offices concurred with the overall recommendation to implement a plan to correct the
problems with the Composite Health Care System interface and Theater DBSS. See the
Finding section for a discussion of management comments and the Management
Comments section for the complete text of the comments.

Audit Response. As a result of management actions, we modified the report and
deleted a recommendation to provide adequate guidance regarding the use and
implementation of the Theater DBSS equipment. The number of Air Force Theater
DBSS laptops readied for use has increased since issuance of the draft report and the
Air Force plans to activate the remaining laptops during upcoming training exercises.

Management comments were partially responsive. We request that the Assistant
Secretary of Defense (Health Affairs) provide additional information concerning an
alternate solution to a spares or replacement program for mobile servers and
workstations. We disagree with the Air Force that the DBSS computer-based training
provides an adequate assessment tool for system administrator competency and request
that the Service Blood Program Offices reconsider the establishment of a tri-Service
system administrator training program. Further, we disagree with the Air Force that
not every facility needs to have the capability to report blood product information to
DBSS. While not every site may require a DBSS or TDBSS computer, we maintain
that blood inventory data should be transmitted to an existing DBSS or TDBSS facility
so that the database remains current. We request that the Assistant Secretary of
Defense (Health Affairs), the Armed Services Blood Program Office, the Army, the
Navy, and the Air Force provide comments, as indicated in Table 2 and Table 4, by
November 26, 2001.




                                            iii
Table of Contents

Executive Summary                                                  i

Introduction
     Background                                                    1
     Objectives                                                    3
     Other Matters of Interest                                     4

Findings
     A. Implementation of the Defense Blood Standard System        5
     B. Deployment and Use of the Defense Blood Standard System   21

Appendixes
     A. Audit Process
          Scope and Methodology                                   31
          Management Control Program Review                       33
          Prior Coverage                                          34
     B. Other Matters of Interest                                 35
     C. Glossary                                                  36
     D. Original Functional Requirements                          40
     E. Report Distribution                                       43

Management Comments
     Assistant Secretary of Defense (Health Affairs)              45
     Armed Services Blood Program Office                          48
     Department of the Army                                       52
     Department of the Navy                                       57
     Department of the Air Force                                  62
Background
           The Armed Services Blood Program. The Armed Services Blood Program
           (the Blood Program) was formally established by Presidential Order in 1952 as
           the Military Blood Program, part of the National Blood Program. The Blood
           Program’s mission is to provide quality blood products, blood substitutes, and
           services for all worldwide DoD customers in peacetime, in wartime, and during
           contingency operations. The primary operational policies for the Blood
           Program are Army Technical Manual 8-227-11/NAVMED [Navy Medical]
           P-5123/Air Force Instruction 44-118, “Operational Procedures for the Armed
           Services Blood Program Elements” (the Operational Procedures Manual),
           September 1, 1995, and Army Manual 8-227-12/NAVMED P-6530/Air Force
           Handbook 44-152, “Joint Blood Program Handbook” (the Handbook),
           January 21, 1998. The Blood Program is managed by the Armed Services
           Blood Program Office (ASBPO) and Service and Joint Blood Program Offices
           (Blood Program Offices). The Blood Program includes operational components,
           such as blood donor centers and blood product depots (Blood Program
           Organizations). The Blood Program Offices and Blood Program Organizations
           (Blood Program Activities) are responsible for the successful collection, storage,
           and distribution of blood products. See Appendix C for a glossary of key terms.

           The Defense Blood Standard System. The Defense Blood Standard System
           (DBSS) is the automated information system used by Blood Program
           Organizations to maintain and track blood donations and blood product
           inventories during peacetime and in the event of war or contingency operations.
           DBSS provides blood product management for fresh and frozen blood products
           during blood collection, processing, testing, shipping, and storage. It also
           provides transfusion service management and system administration. DBSS is
           unique because it is the only automated information system within the Military
           Health System that is regulated by the Food and Drug Administration (FDA) as
           a Class II Medical Device. The Class II Medical Device designation gives the
           FDA the authority to inspect the development and use of DBSS.

           DBSS supports blood operations at military treatment facilities, Armed Services
           Whole Blood Processing Laboratories, blood product depots, blood donor
           centers, and mobile blood drives. A theater version of DBSS, Theater DBSS
           (TDBSS), supports Blood Program Organizations that primarily have wartime
           missions, such as blood supply units and blood transshipment centers. DBSS
           and TDBSS use the same software; the difference between the two systems is
           that DBSS is operated on a desktop personal computer and TDBSS is operated
           on a laptop.1




1
    For purposes of the report, the Blood Program Organizations operating DBSS will be referred to as
    “fixed facilities,” and the Blood Program Organizations operating TDBSS will be referred to as TDBSS
    facilities.



                                                     1
            In the late 1980s, DoD recognized the need for an automated blood system. At
            that time, with the increase in the number of human immunodeficiency virus
            cases in the United States, DoD identified a need to automate the lookback2 and
            donor deferral3 programs. The first attempt by DoD to create an automated
            blood system was the Defense Blood Management Information System. That
            system was found to be ineffective and, in the early 1990s, was replaced with
            DBSS. DBSS management and support costs for FY 1991 through FY 2000
            totaled $70.1 million. Projected costs for FY 2001 through FY 2007 are
            $43.8 million.

            DBSS Interface and Upward Reporting Capabilities. As of May 2001, DBSS
            had interface capabilities with two systems, the Composite Health Care System
            (CHCS) and the Automated Blood Product Labeling System, and provided input
            to a third system, the Joint Medical Asset Repository (JMAR). The interfaces
            with CHCS and the Automated Blood Product Labeling System are
            bi-directional; that is, each system can send data to and receive data from the
            other system. In contrast, the interface with JMAR is a one-way sharing of
            data. JMAR receives blood product inventory and shipping information from
            DBSS through an online upward reporting capability.

            DBSS Program Management. The responsibility for managing DBSS resides
            with the DBSS Project Office, under the Clinical Information Technology
            Program Office (CITPO), Office of the Assistant Secretary of Defense (Health
            Affairs).4 In addition to overall management responsibilities, the DBSS Project
            Office, in coordination with the user community, is responsible for identifying
            new requirements, resolving user complaints, and acting as the technical
            representative for the design and maintenance contract with Electronic Data
            Systems to ensure that DBSS meets Government specifications. The functional
            proponent of DBSS is the ASBPO. As such, the ASBPO is involved in the
            design and funding for DBSS.

            Technical Support. Two major organizations provided technical support for
            DBSS, Electronic Data Systems and the Tri-Service Medical System Support
            Center (TMSSC). Electronic Data Systems is the contractor responsible for the
            integration, design, development, operation, and maintenance of DBSS.
            TMSSC, a DoD organization within the Office of the Assistant Secretary of
            Defense (Health Affairs), provided the initial technical support5 and elevated
            more complex issues to Electronic Data Systems.




2
    Lookback refers to the process of tracking blood product donations and transfusions so that former blood
    recipients or donors can be notified that they may have received or donated infected blood products.
3
    Blood donors can be either temporarily or permanently deferred from donating blood products,
    depending on their exposure or possible exposure to infectious diseases.
4
    Management of the program under the Office of the Assistant Secretary of Defense (Health Affairs)
    began in 1998 when the Office of the Navy Surgeon General ceased being the executive agent for the
    system.
5
    As of October 1, 2001, TMSSC was replaced by the International Business Machines Corporation.



                                                       2
     DBSS Deployment. As of August 31, 2001, DBSS had been deployed to
     79 fixed facilities: 78 operational facilities and 1 training facility. The initial
     test, or “Alpha” version, of DBSS was fielded in 1992. Since 1994, nine
     versions of DBSS have been deployed, as shown in Table 1. The release of the
     next version is planned for August 2002.

                                     Table 1. DBSS Deployment

                 DBSS Version                               Deployment Date
                   1.00                                       August 1994
                   1.01                                      February 1995
                   1.02                                         May 1995
                   1.02EM1                                      July 1995
                   1.03                                      November 1995
                   2.00/2.012                                 not deployed
                   3.00                                October 1998-February 1999
                   3.01                                        March 1999
                   3.02                                     September 2000
                   3.03                                     September 2000
      1
          EM indicates an emergency maintenance release to correct system problems.
      2
          Functional requirements for version 2.00/2.01 were included in version 3.00.

     TDBSS Deployment. As of August 31, 2001, TDBSS equipment had been
     delivered to 24 of the 35 TDBSS facilities (3 Army, 6 Navy, and 15 Air Force).
     The Military Departments were in the process of deploying TDBSS hardware
     that contains at least DBSS version 3.01 software.


Objectives
     The overall objective of the audit was to determine whether the management and
     administration of the Blood Program was adequate to ensure quality blood
     products were properly handled and controlled during peacetime and wartime.
     This audit is the second in a series of audits concerning the Blood Program.
     This report addresses the automated information systems supporting the Blood
     Program. The previous audit addressed Blood Program readiness issues. We
     also reviewed the adequacy of the management control programs of the
     TRICARE Management Activity and the offices of the Surgeons General as they
     applied to the audit objective. See Appendix A for a discussion of the audit
     scope and methodology, our review of the management control programs, and
     prior coverage related to the audit objectives.




                                                  3
Other Matters of Interest
     A discussion of the accessibility to JMAR is in Appendix B. As of March 2001,
     there were only limited controls in place to identify and terminate unauthorized
     and inactive user accounts. In June 2001, additional controls were established
     for creating and managing user accounts. The discussion in the appendix
     describes the need for readiness-related controls.




                                        4
            A. Implementation of the Defense Blood
               Standard System
            Implementation of DBSS was not adequate to meet all user and mission
            needs of the Blood Program. DBSS did not provide the elements
            necessary to fully support Blood Program operations. The inability to
            meet user and mission needs occurred because DoD did not incorporate
            key original requirements into the system design, did not ensure DBSS
            provided all necessary data for total asset visibility, and did not provide
            adequate system support to users. Further, the DBSS Project Office did
            not provide complete or up-to-date user training, and the Service Blood
            Program Offices did not establish required competency assessments for
            key functional personnel. As a result, use of DBSS could adversely
            affect asset accountability, increase the workload at Blood Program
            Organizations, increase the risk of blood inventory errors, and possibly
            result in the inappropriate release of blood products.


User and Mission Needs
    DBSS implementation was not adequate to meet user and mission needs of the
    Blood Program. Specifically, DBSS implementation did not provide the
    following elements necessary to fully support Blood Program operations.

        •   Five original design requirements (global donor deferral; global
            lookback; laboratory testing equipment interface; accurate, timely, and
            readily available reports; and cryovial shipment and storage
            management).

        •   Total asset visibility.

        •   Adequate system support.
        •   Adequate user training.


Original Design Requirements
    The inadequacies of DBSS in supporting user and mission requirements
    occurred in part because the implemented system did not include key original
    requirements. The initial system included functions that captured blood donor
    information, provided blood product management, identified site-specific
    lookback information, recorded transfusion information, and supported system
    administration. However, five functions that were identified as user
    requirements for the initial versions of DBSS (versions 1.00 and 2.00), and
    were used as justification for automating the blood system, had still not been
    included in DBSS—almost 7 years after the first version was deployed. The five
    functions are global donor deferral; global lookback; an interface with


                                         5
laboratory testing equipment; accurate, timely, and readily available reports;
and cryovial shipment and storage management. See Appendix D for a detailed
description of the key functional requirements.

We identified the key original design requirements by reviewing studies and
other planning documents because the DBSS Project Office could not provide a
mission needs statement, an operational requirements document, or some other
formal document that outlined the initial validated user requirements for DBSS.
Documents reviewed included the following.

    •   “Defense Blood Management Information System, Functional
        Description,” September 23, 1987, National Data Corporation, San
        Antonio, Texas.

    •   “Corporate Information Management for the MHSS [Military Health
        Services System]-Blood Management, High Level Functional Situation
        Analysis,” August 12, 1991, Corporate Information Management
        Medical Functional Group.

    •   “Corporate Information Management, Medical, Defense Blood Standard
        System, Functional Economic Analysis,” undated, Vector Research,
        Incorporated, Arlington, Virginia.

    •   “DBSS Apache Study, Process Analysis and Models,” April 1992.

    •   User group meeting minutes from a May 11, 1992, Functional User
        Group Workshop, that addressed the design of DBSS versions 1.00 and
        2.00.

    •   “Medical Readiness Strategic Plan 1998-2004,” August 1998.

To ensure DBSS incorporates the functionality required by the users, DoD must
provide the funding necessary to implement the five key functions identified by
users as critical requirements. The first three functions—global donor deferral,
global lookback, and an interface with laboratory testing equipment—are funded
for development in FY 2002 and FY 2003. However, the remaining two
functions are not funded.

The fourth function, an improved reporting capability, was being partially
addressed. As a result of this audit, the DBSS Project Office will survey the
user community for reports created at individual Blood Program Organizations
that could have universal benefit. Reports that are approved for widespread
distribution will be posted on the DBSS Internet site. However, that action does
not solve the problems associated with the accurate generation of DD Form
2555, “Blood Bank Operational Report.”

System changes needed to incorporate the fifth function, cryovial management,
had been approved but assigned a low priority. ASBPO should ensure the five
original key functional requirements are incorporated into DBSS.




                                    6
Total Asset Visibility
     The DBSS and JMAR Project Offices did not ensure that upward reporting from
     DBSS to JMAR provided all critical blood product data necessary for total asset
     visibility. Specifically, data reported from DBSS to JMAR did not reflect that a
     blood product shipment was received by a Blood Program Organization, which
     could potentially result in a temporary double counting of blood assets. JMAR
     contains 12 query reports used by Blood Program Offices for planning purposes.
     The reports provide on-hand blood product inventory data for each Blood
     Program Organization or group of organizations and data for blood products in
     transit between Blood Program Organizations. DBSS updates on-hand inventory
     data for Blood Program Organizations on a daily basis. The inventory data for
     in-transit blood products are posted to JMAR as soon as a shipment is annotated
     as “closed” in DBSS; however, the inventory data are maintained in JMAR for
     7 days. To determine the total number of blood products within a unified
     command, a JMAR user would need to run query reports for both on-hand and
     in-transit inventory. Because the in-transit inventory data remain in JMAR
     regardless of whether the inventory was received, blood products could be
     included in both the in-transit and on-hand inventory data for the receiving
     facility. To obtain the correct inventory information, the unified command
     would have to contact the sites showing in-transit inventory to determine its
     receipt status, partially defeating the purpose of having an automated reporting
     capability. The problem could be significant during wartime or a contingency
     operation, when the shipping of blood products will increase substantially. The
     DBSS and JMAR Project Offices should modify their systems, as needed, to
     ensure in-transit inventory is not counted twice.


System Support
     DoD did not provide adequate system support to users. System support is
     composed of two processes—system request processing and trouble ticket
     processing. The DBSS Project Office and the Blood Program Offices did not
     adequately process user-initiated system requests. TMSSC did not adequately
     provide technical support for trouble ticket processing, as required by its
     support agreement with CITPO. In addition, the DBSS Project Office did not
     provide adequate oversight of the trouble ticket process.

     Initially, the two system support processes operated independently. Before
     January 2001, users submitted system requests to the Blood Program Offices,
     DBSS Project Office, TMSSC, or Electronic Data Systems and submitted
     trouble tickets to TMSSC. To improve management of the system support
     process, both system requests and trouble tickets were submitted only through
     TMSSC. TMSSC forwarded the system requests to Electronic Data Systems,
     which entered the information into the tracking system.




                                        7
           System Request Processing. The DBSS Project Office and the Blood Program
           Offices did not adequately process user-initiated system requests. We identified
           four concerns with the handling of system requests by the DBSS Project Office
           and the Blood Program Offices:

                •    outstanding system requests,

                •    approved system requests lacked documentation,

                •    impact studies for changes were not conducted, and

                •    readiness-related representation was not included in the review process.

           System requests are formally submitted by users and handled through the system
           request process. That process is outlined in the “DBSS Configuration
           Management Plan,” January 2001, which updated the August 1998
           Configuration Management Plan. The Configuration Management Plan includes
           procedures for the review, prioritization, and documentation for incorporating
           user requirements into the system’s design. Specifically, the process for
           handling system requests includes two types of reviews. The first type is a
           functional review, which is performed by Blood Program Office, DBSS Project
           Office, and Electronic Data Systems personnel. The second type is a technical
           review, which is performed by DBSS Project Office and Electronic Data
           Systems personnel. Each review group makes recommendations and prioritizes
           the system requests until they are closed out as a nonessential functionality,
           approved as a funded requirement for DBSS, or approved as an unfunded
           requirement for DBSS. Further, the Configuration Management Plan requires
           that the status of each system request be maintained in an automated tracking
           system and that the entire process for the validation, approval, review, and
           prioritization of system requests be completed on at least a quarterly basis.

           There are two types of system requests—system change requests and system
           incident reports. System change requests are requests for functional changes
           and enhancements to existing DBSS requirements. Examples of system change
           requests include adding a global lookback capability, maintaining additional
           donor and transfusion data, computing blood types, and providing expiration
           schedules for all blood products. System incident reports are requests for a
           correction to DBSS when the system does not operate properly. System incident
           reports are temporarily resolved through system workarounds.6 Users have
           submitted system incident reports for problems associated with the accuracy of
           blood reports, the dating of blood products, the scanning of blood product
           information into DBSS, and the entry of donor information.

                  Outstanding System Requests. Before March 2001, DoD had not
           adequately processed 729 system requests that had been submitted between
           May 1994 and October 2000. The 729 outstanding system requests were
           composed of 480 system change requests and 249 system incident reports.
           Although required by the Configuration Management Plan to process the system

6
    A workaround is a method of accomplishing a task, despite inadequacy in software or hardware, without
    correcting the underlying problem.



                                                     8
requests on a quarterly basis, DoD failed to meet the standard, resulting in the
incomplete processing of 480 system change requests. Further, although
required, the system change requests were not adequately maintained in the
automated tracking system. The 249 system incident reports also had not been
adequately processed, resulting in 133 system workarounds that must be
managed by the Blood Program Organizations until a corrective change is
incorporated into DBSS. According to the DBSS Project Office, an initial
review of the 480 outstanding system change requests was completed in
March 2001, resulting in 218 being closed, 11 funded for a future release, 5 had
already been fielded, and the remaining 246 were in various stages of review.
We commend the DBSS Project Office for taking action to reduce the backlog of
system change requests. However, as of May 2001, 116 outstanding system
incident reports still needed to be reviewed and 131 of the 133 workarounds had
not been resolved with permanent changes.

        Documentation of Approved System Requests. System requests
approved for inclusion in versions 3.02 and 3.03 and future versions of DBSS
had not been adequately documented, as required by the Configuration
Management Plan. We reviewed the postings in the automated tracking system
for 22 system requests included in DBSS versions 3.02 and 3.03 and for 7 that
had been approved for the next DBSS version release. Of the 29 postings
reviewed, only 2 contained all of the data, validations, and approvals required.
Examples of omissions included indication of potential patient safety impacts,
DBSS Project Office validation, and technical and functional approval.

        Impact Studies for Changes. The system request functional review
process did not require an impact study for changes to determine the effect of a
proposed change on all Blood Program Organizations. Because Blood Program
Organizations perform different functions—some organizations collect blood,
some transfuse blood, and others only store and ship blood products—a change
that could improve the processing at one organization could negatively affect the
performance of another. That situation occurred when DBSS version 3.00 was
implemented. A change that improved processing at the blood donor centers
negatively impacted the ability of the Armed Services Whole Blood Processing
Laboratories to process blood products. The blood processing laboratories
indicated that although they could accommodate the extra work required during
peacetime, in the event of a wartime situation or a contingency operation, they
would not be able to adequately meet their mission. The blood processing
laboratories submitted a system request to correct the problem. If an impact
study had been completed before incorporating the system change, the additional
expense needed to correct the resulting problem could have been avoided.

       As a result of our audit, in June 2001, the DBSS Project Office revised
its “User Focus Group Standard Operating Procedure” to include the
requirement to perform a functional impact assessment. The purpose of the
assessment is to determine the impact of an approved system request on other
Blood Program Organizations.




                                    9
                   Readiness-Related Representation in the Review Process. The DBSS
           Project Office did not ensure that the functional review process included
           personnel representing all possible users of DBSS. There were no
           representatives from TDBSS facilities included in the functional review process
           to ensure that readiness requirements were considered. It is imperative to have
           input from all types of users, including users familiar with TDBSS, so that all
           operational aspects of the Blood Program are considered when system requests
           are reviewed. As a result of our audit, in June 2001, the DBSS Project Office
           revised its “User Focus Group Standard Operating Procedure” to include a
           Service-designated TDBSS user as a voting member of the user focus group.

           Enhancements to the System Request Process. Although the DBSS Project
           Office had worked diligently to define and implement new procedures for
           system request processing, the following changes would improve the process.

                •   Completely process all outstanding system requests.

                •   Establish management controls to ensure all future system requests are
                    processed in accordance with the Configuration Management Plan.

                •   Establish procedures to ensure all required data, validations, and
                    approvals are entered into the tracking system.

           Trouble Ticket Processing. TMSSC did not adequately provide technical
           support, as required by the support agreement with CITPO. That support
           agreement outlined the requirements for both the DBSS Project Office and
           TMSSC. Technical support began with a user submitting a trouble ticket to
           TMSSC through a telephone call, facsimile, or e-mail. If the trouble ticket
           could not be resolved by TMSSC, it was elevated to Electronic Data Systems.
           Electronic Data Systems could resolve the problem directly, return the trouble
           ticket to TMSSC for resolution, or elevate the problem as a system request.

           Under the support agreement, TMSSC was required to meet monthly
           performance standards and to report trouble ticket and performance information
           on a monthly basis to CITPO. Specifically, TMSSC was required each month
           to resolve 50 percent of trouble tickets within 48 hours of submission and
           80 percent within 144 hours. During calendar year 2000, TMSSC met its
           standard to submit monthly reports. However, TMSSC met the 48-hour
           performance standard in only 2 out of 117 months and did not meet the 144-hour
           standard at all. Figure 1 shows TMSSC compliance with the 48-hour time
           standard; Figure 2 shows TMSSC compliance with the 144-hour time standard.




7
    TMSSC did not produce metrics for December 2000 because the automated system used to track the
    metric data was being updated.



                                                   10
                       85
                       80
                       75
                       70
    Percent Complete

                       65
                       60
                       55
                                Standard
                       50
                       45
                       40
                       35
                       30
                            Jan Feb M ar Apr M ay Jun Jul   Aug Sep O ct    Nov
                                                  2000


Figure 1. Percent of Trouble Tickets Resolved by TMSSC Within 48 Hours
During Calendar Year 2000




                       85
                                Standard
                       80
                       75
                       70
    Percent Complete




                       65
                       60
                       55
                       50
                       45
                       40
                       35
                       30
                            Jan Feb M ar Apr M ay Jun Jul    Aug Sep O ct    Nov
                                                  2000


Figure 2. Percent of Trouble Tickets Resolved by TMSSC Within 144
Hours During Calendar Year 2000




                                              11
On June 8, 2001, the Office of the Assistant Secretary of Defense (Health
Affairs) awarded a support services contract to the International Business
Machines Corporation to perform the services being handled by TMSSC. The
contract requires compliance with incentivized performance metrics, which
allows for both positive and negative financial incentives based on established
performance criteria. The contract was effective October 1, 2001; TMSSC no
longer provides support services.

However, the problems identified with TMSSC performance could continue to
occur under the new contract. According to the DBSS Project Office, “There is
no question that the DBSS medical device [designation] had an impact on
TMSSC’s inability to meet established standards.” The DBSS Project Office
stated that TMSSC was working with them to develop alternative metrics.
However, the new support services contract has the same performance metrics
for handling DBSS issues as any other automated system in the Military Health
System. If DBSS support is more complex because of the Class II Medical
Device designation, then the contract should include separate metrics for DBSS.

Oversight of the Trouble Ticket Process. The DBSS Project Office did not
provide adequate oversight of the trouble ticket process. The DBSS Project
Office did not comply with a requirement to prepare quarterly performance
review reports of TMSSC technical support to ensure it performed adequately.
In addition, the DBSS Project Office did not review monthly reports submitted
by TMSSC to proactively identify possible problem areas associated with DBSS.
Further, the DBSS Project Office did not ensure that users were provided
complete guidance concerning trouble ticket processing.

        DBSS Project Office Performance and Requirements. The DBSS
Project Office did not prepare quarterly performance review reports of TMSSC
technical support, as required by the support agreement. Further, the DBSS
Project Office did not proactively review TMSSC-provided reports to identify
potential problem areas associated with DBSS. TMSSC was required by the
support agreement to report trouble ticket and performance information to
CITPO each month. The reporting was to cover trouble tickets submitted
during the current month plus the preceding 11 months and identify the status of
trouble tickets by Military Department, priority, subject, and TRICARE region.
The DBSS Project Office was required to prepare a quarterly report on its
review of the monthly reports submitted by TMSSC.

        The DBSS Project Office did not ensure that TMSSC provided adequate
technical support to users because it was not completing its quarterly
performance reviews of TMSSC performance, as required. Had the DBSS
Project Office performed the reviews and prepared the reports, it would have
identified that TMSSC performance was not acceptable and that users were not
being adequately supported.

        As a result of our audit, in June 2001, the DBSS Project Office issued a
quarterly performance review report covering the second quarter of FY 2001.
The report identified the need for revised metrics and that TMSSC did not meet
its standard for the quarter.




                                   12
                   Reviewing the trouble ticket submission reports would also have
           provided the DBSS Project Office with the opportunity to proactively identify
           problems reported by the users. For example, a systematic review of TMSSC
           reports by the DBSS Project Office would have shown that there was a
           widespread problem with mobile DBSS systems.8 The mobile systems are used
           on blood drives to record DBSS data for downloading into the fixed facility
           DBSS database. Without the mobile systems, the DBSS data has to be manually
           collected for entry into DBSS at a later time, resulting in both extra work and
           the possibility of a data input error. Of the 18 Blood Program Organizations
           contacted, 6 conducted mobile blood drives and 4 of those 6 reported problems
           with their mobile DBSS system. Those four organizations conducted up to four
           mobile blood drives a week. Three organizations were without a mobile server
           for between 12 days and 6 weeks, and the fourth was without a mobile server
           for 6 out of 8 months. Although CITPO established a spares or replacement
           program for other hardware components, it did not have a spares or replacement
           program for the mobile servers or workstations. Had a review been conducted,
           the DBSS Project Office could have identified the problem and established a
           spares or replacement program to assist the Blood Program Organizations.

                   The DBSS Project Office needs to establish controls to ensure quarterly
           performance reviews of the system support services contractor are conducted
           and required reports are prepared. In addition, the DBSS Project Office needs
           to establish procedures to review the monthly trouble ticket reports to identify
           possible DBSS problems.

                   User Understanding of the Trouble Ticket Process. The DBSS Project
           Office did not ensure that users were provided complete guidance concerning
           the trouble ticket process. There was insufficient information available to users
           in the “DBSS User’s Guide Version 3.03,” August 2000, and the “System
           Administrator Guide Version 3.03,” September 2000. The guides do not
           contain the TMSSC time standards for the resolution of trouble tickets or the
           criteria that users should consider when requesting a priority for their trouble
           tickets.9 In addition, the guides contain no information concerning the TMSSC
           trouble ticket tracking system, Remedy, which was specifically designed to
           allow users to follow the status of their trouble tickets. Remedy was accessed
           by authorized users through Infonet, a TMSSC Internet site.10 Out of 18 Blood
           Program Organizations, only 4 were aware of the time standards for resolving
           trouble tickets. In addition, only 7 were aware of how priorities were assigned
           or had been asked to assign a priority. Only 10 had Infonet accounts.

                  As a result of our audit, the DBSS Project Office started to address the
           problem of user understanding of the trouble ticket process. On April 25, 2001,
           the DBSS Project Office issued a memorandum to the Service Blood Program

8
    Mobile DBSS systems include both servers and workstations.
9
    Each trouble ticket was assigned a priority of low, moderate, or high, based on the severity of the
    problem. According to TMSSC, the user assigned the initial priority, which might be changed after
    evaluation by TMSSC. The priority dictated the order in which the trouble tickets were to be resolved.
10
    Effective October 1, 2001, a similar trouble ticket tracking system was made available to DBSS users
    and system administrators by International Business Machines Corporation.



                                                      13
    Offices that provided criteria for establishing trouble ticket priorities. That is an
    excellent first step; however, the information needs to be included in a primary
    information source, such as the User and System Administrator Guides. In
    addition, the information needs to be expanded to include trouble ticket time
    standards and tracking procedures.


User Training
    The DBSS Project Office did not provide users with complete and current
    training. Additionally, the Service Blood Program Offices did not establish
    standardized competency assessments to measure the skills of system
    administrators, as required by the FDA, and did not train them to meet those
    standards.

    Computer-Based Training. Computer-based training provided by the DBSS
    Project Office for DBSS users and its system administrators was not updated to
    reflect the system functionality added with the September 2000 releases of
    DBSS. Generally, the Blood Program Organizations required their new staff to
    complete the computer-based training before they could access DBSS and they
    required current staff to complete the training annually. Out of 18 Blood
    Program Organizations, 14 were using the computer-based training; however,
    8 of those organizations did not find it useful. At the four organizations not
    using the training, three were TDBSS facilities and one was a fixed facility that
    had created its own training program.

    The computer-based training consists of five user modules and one system
    administrator module. However, the training is not adequate to fully meet user
    training needs because it was not updated to reflect new functionality
    incorporated in the September 2000 releases of DBSS. The computer-based
    training available to Blood Program Organizations was issued in February 1999
    and does not reflect the updated functionality. The training modules do not
    include instructions on scanning blood product information into and out of
    inventory or the interface with the new automatic labeling capability. Further,
    new drop-down menus used to expedite the processing of blood products are not
    included in the training, forcing the student to enter data that is not required by
    the latest DBSS versions. In addition, the training does not address upward
    reporting to JMAR, a key system administrator responsibility.

    As of May 2001, there were no plans to update the computer-based training nor
    was there a mechanism in the DBSS contract to ensure the computer-based
    training is updated with each major release. The computer-based training is the
    primary training tool for DBSS users. If it is to remain so, it should include all
    key DBSS functions and be updated as part of future major releases.

    System Administrator Competency Assessments. The Service Blood Program
    Offices did not establish standardized competency assessments for system
    administrators, as required by the FDA, and did not train them to meet those
    standards. Compliance with FDA requirements is critical to meeting mission
    needs. When inspecting computer systems, the FDA evaluates all processes to
    determine if an overall computer system is acceptable. As part of that


                                         14
    inspection, the FDA evaluates the competency of individuals engaged in
    manufacturing blood products and determines whether Blood Program
    Organizations have procedures for assessing the adequacy of their training
    programs. Because the system administration of DBSS is a major part of the
    computer system process, the system administrator responsibilities fall within
    the scope of the FDA compliance program. However, the Military Departments
    did not establish standardized competency assessments for its system
    administrators, and very few of the Blood Program Organizations had developed
    such standards. Out of 18 Blood Program Organizations, only 2 had published
    competency assessments for their system administrators and only 1 (Walter Reed
    Army Medical Center) had a comprehensive assessment checklist.

    The Military Departments recognized the need to have competent system
    administrators and that the computer-based training was not sufficient for that
    purpose. The Army and the Navy independently developed system
    administrator training courses. Those training courses are conducted at the
    Army Medical Department Center and School in San Antonio, Texas.

    Training Enhancements. DBSS training could be improved in three ways.

        •   Update the DBSS computer-based training to reflect current
            functionality.

        •   Establish a method to ensure updated computer-based training is
            provided with each major release.

        •   Establish annual competency assessment requirements for system
            administrators and develop a tri-Service system administrator training
            program to train system administrators to meet those requirements.


Effect of Not Meeting User and Mission Needs
    DBSS does not provide key functionality required by DBSS users, which could
    adversely affect asset accountability, increase the workload at Blood Program
    Organizations and technical support offices, increase the risk of blood inventory
    errors, and possibly result in the inappropriate release of blood products. The
    lack of the functionality limits the ability of DBSS to be a complete blood
    management system.

    Users cannot rely on DBSS to provide accurate blood product inventory or
    operational data on a global or local level. Local inventory reports continue to
    be compiled manually because DBSS lacks the functionality to generate all the
    data needed for inventory reporting. When functions are performed manually
    instead of using DBSS, the workload for Blood Program Activities increases.

    The use of manual records and the independent recording of data into multiple
    systems can increase the chance of data input error or the release of
    inappropriate blood products. The lack of a global donor deferral function
    creates opportunities for personnel to donate at blood donor centers within the
    Military Health System after having been temporarily or permanently deferred


                                        15
    by another facility. The lack of a global lookback capability increases the risk
    of not identifying all blood recipients or blood products that may have been
    exposed to an infectious disease, because Blood Program Organizations must
    rely on the independent check of records at multiple facilities. The lack of an
    interface between DBSS and laboratory testing equipment requires the manual
    input of more than one million infectious disease test results into DBSS on an
    annual basis. We realize that local controls are in place to prevent input errors
    and to prevent the inappropriate release of blood products; however, automating
    those functions can improve the process and reduce overall risk.


Management Comments on the Finding and Audit Response
    Air Force Comments. The Air Force partially concurred with the finding. It
    did not agree that the Service Blood Program Offices should establish
    competency assessments for key functional personnel. It stated that competency
    assessment was provided for the DBSS functional system administrator as a
    component of the computer-based training program. The Air Force also stated
    that the Army and the Navy have established system administrator training
    courses and that several Air Force members have attended. Further, the Air
    Force stated that increased risk of blood inventory errors are related to the use
    of JMAR. It stated that when only DBSS is used, local inventory data is not
    counted twice. The Air Force requested that the report clearly state that it is the
    JMAR blood inventory data that is at risk of being in error, not the DBSS
    inventory data. The Air Force also stated that the finding does not support that
    the use of DBSS could possibly result in the inappropriate release of blood
    products. Last, the Air Force disagreed with our statement to include
    representatives from TDBSS facilities in the functional review process.

    Audit Response. The audit responses to Recommendation A.3.a. and
    Recommendation A.3.b. address system administrator competency assessments
    and training.

    The duplicate counting problem is a result of the upload from DBSS to JMAR.
    The link needs to be modified whether within the JMAR system or DBSS. We
    still believe the use of DBSS could result in an inappropriate release of blood
    products, as discussed in Appendix D.

    Regarding the Air Force comment on the requirement for TDBSS representation
    in the functional review process, the DBSS Project Office has already revised its
    policy to require Service-designated TDBSS users as voting members of the user
    focus group.




                                        16
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Director, Armed Services Blood Program
    Office, in coordination with the Service Blood Program Offices and the
    Defense Blood Standard System Project Office, establish a plan for ensuring
    the original key functional requirements that were identified by system users
    as critical are incorporated into the Defense Blood Standard System.

    Armed Services Blood Program Office Comments. ASBPO concurred,
    stating that it will coordinate with the Services to validate original functional
    requirements previously identified by system users and, if valid, prioritize those
    requirements for incorporation into DBSS.

    Assistant Secretary of Defense (Health Affairs) Comments. The Assistant
    Secretary of Defense (Health Affairs) concurred and stated that he will support
    the Director of the Armed Services Blood Program, as appropriate.

    Army Comments. The Army concurred and agreed to work with ASBPO and
    the Service Blood Program Offices to validate and prioritize the original
    functional requirements.

    Navy Comments. The Navy concurred and agreed to work with ASBPO and
    the Service Blood Program Offices to validate and prioritize the original
    functional requirements.

    A.2. We recommend that the Defense Blood Standard System Project
    Office:

           a. Establish management controls to ensure:

                   (1) System requests are processed completely and timely, and
    that all required data, validations, and approvals are entered into the
    tracking system.

                  (2) A review of trouble ticket submissions is completed, as
    required, to determine compliance with trouble ticket performance
    standards by both current and future contractors.

                  (3) Trend analyses are completed on trouble ticket reports to
    identify opportunities for system improvements.

           b. Establish procedures to ensure that spare or replacement Defense
    Blood Standard System mobile servers and workstations are available when
    users experience hardware problems.




                                        17
        c. Establish a method to inform users and system administrators
about the trouble ticket process, including, at a minimum, an explanation of
priority assignments, trouble ticket processing time standards, and trouble
ticket tracking procedures.

      d. Provide updated computer-based training with each major
software release that reflects current functionality.

Assistant Secretary of Defense (Health Affairs) Comments. The Assistant
Secretary of Defense (Health Affairs) concurred with Recommendations A.2.a.,
A.2.c., and A.2.d. The Assistant Secretary has developed standard operating
procedures to address the complete and timely processing of system requests,
complaint handling, trouble tickets, and trend analysis. In addition,
performance reviews and quality checks are being conducted for the first level
of trouble ticket processing and quality checks are being conducted to ensure
that all required data is entered into the system request tracking system. To
ensure users and system administrators are informed about the trouble ticket
process, a DBSS technical bulletin procedure has been established. Further, the
Assistant Secretary stated that computer-based training will be provided with
each major release beginning with the next major release scheduled for the
fourth quarter of FY 2002. The Assistant Secretary nonconcurred with
Recommendation A.2.b., which requested he establish procedures to ensure
spare or replacement DBSS mobile servers and workstations are available.
Instead, he stated that a “root cause analysis” of the mobile system trouble
tickets is being performed to determine the best solution to address the issue.

Armed Services Blood Program Office Comments. ASBPO concurred.

Army Comments. The Army concurred.

Navy Comments. The Navy concurred.

Audit Response. Assistant Secretary of Defense (Health Affairs) comments on
Recommendations A.2.a., A.2.c., and A.2.d. are fully responsive. The
Assistant Secretary’s response to Recommendation A.2.b. is partially
responsive. We will consider his alternative proposal to the establishment of a
spares or replacement program for mobile servers and workstations after we
have received more details. We request that in response to the final report, the
Assistant Secretary provide specific details concerning the alternative solution so
that we can evaluate whether it meets the intent of the recommendation.

A.3. We recommend that the Surgeons General of the Military
Departments:

      a. Establish annual competency assessment requirements for system
administrators.

       b. Develop a tri-Service system administrator training program.

Army Comments. The Army concurred and agreed to work with ASBPO and
the other Service Blood Program Offices to develop a standardized competency
assessment tool for DBSS system administrators. The estimated time frame for


                                    18
completion is October 31, 2001. The Army stated that it has established a
DBSS System Administrators/Users Course at the Army Medical Department
Center and School (the School), and the training is based on DBSS version
3.02/3.03. The Army also stated that the Navy offers essentially the same
training at the School. The Air Force has been invited to send representatives to
those courses for training on a space-available basis. The Army had not
solicited the Air Force for funding for the training.

Navy Comments. The Navy concurred and agreed to work with ASBPO and
the other Service Blood Program Offices to develop a standardized competency
assessment tool for system administrators. The estimated time frame for
completion is October 31, 2001. The Navy stated that it offers system
administrator training at the School and the Air Force may send personnel on a
space-available basis. The Navy, like the Army, had not solicited funds from
the Air Force for the training.

Air Force Comments. The Air Force nonconcurred, stating that competency
assessment tools are provided as part of the computer-based training and that
annual competency assessment of system administrators is already required.
The Air Force also stated that the Navy has contracted for a DBSS training
program that is open to all Services and is a de facto tri-Service training
program.

Armed Services Blood Program Office Comments. ASBPO concurred,
stating that training is currently offered by the Army and the Navy.

Audit Response. Army and Navy comments on Recommendation A.3.a. are
fully responsive. Army and Navy comments on Recommendation A.3.b. are
partially responsive. The Army and the Navy concurred with the
recommendation to establish a tri-Service training program; however, neither
Military Department agreed to consolidate its program into a tri-Service training
program for DBSS system administrators. The Army and the Navy offer
essentially the same training, developed under separate contracts with the same
contractor. A single training contract would be more efficient than having
separate contracts and would eliminate the potential for DoD paying twice for
any changes necessary to incorporate DBSS updates. We request that in
response to the final report, the Army and the Navy indicate how and when they
will develop a single tri-Service training program to meet the training needs for
all DBSS system administrators.

Air Force comments are not responsive. The Service Blood Program Offices
have not established annual competency assessment requirements for system
administrators, as indicated by the Air Force. We found the current
computer-based training insufficient, as it does not address all current system
administrator functions, including the responsibilities of the technical system
administrator. The Army and the Navy concurred with our recommendation
and agreed to establish competency assessment requirements by October 31,
2001. Further, the system administrator training currently provided by the
Army and the Navy only provides training to Air Force personnel on a
space-available basis. With the Air Force supporting a tri-Service training
program, the training would be available to all appropriate Air Force personnel
instead of solely on a space-available basis. In response to the final report, we


                                    19
    request that the Air Force reconsider its position concerning the establishment of
    annual competency assessment requirements for system administrators and the
    development of a tri-Service system administrator training program.

    A.4. We recommend that the Joint Medical Asset Repository and Defense
    Blood Standard System Project Offices modify their systems, as necessary,
    to ensure in-transit inventory is not counted twice.

    Assistant Secretary of Defense (Health Affairs) Comments. The Assistant
    Secretary of Defense (Health Affairs) concurred, stating that appropriate action
    has been initiated to ensure in-transit inventory is not counted twice in JMAR.
    Further, corrective changes in DBSS will be in the release scheduled for the
    second quarter of FY 2003.

    Armed Services Blood Program Office Comments. ASBPO concurred.

    Army Comments. The Army concurred.

    Navy Comments. The Navy concurred.


Management Comments Required
    Management is requested to comment on the items indicated with an X in
    Table 2.


            Table 2. Management Comments Required on Finding A


     Recommendation                           Concur/    Proposed    Completion
         Number           Organization       Nonconcur    Action       Date
         A.2.b.           Health Affairs                    X           X
         A.3.a.           Air Force             X           X           X
         A.3.b.           Army                              X           X
         A.3.b.           Navy                              X           X
         A.3.b.           Air Force             X           X           X




                                        20
                 B. Deployment and Use of the Defense
                    Blood Standard System
                 The deployment and use of DBSS was not consistent throughout DoD.
                 Two different versions of DBSS were in operation simultaneously.
                 Additionally, only 46 percent of fixed facilities used the CHCS interface,
                 and only 54 percent of the TDBSS laptops were ready for use. In
                 addition, reporting to JMAR through DBSS was not complete. The
                 inconsistent deployment and use of DBSS occurred because the Service
                 Blood Program Offices did not provide adequate oversight of DBSS
                 implementation. In addition, Blood Program policy published by the
                 Military Departments does not require the use of DBSS at all Blood
                 Program Organizations. As a result, standardized blood product
                 management was not achieved, workload for Blood Program Activities
                 increased, and DoD might not achieve total asset visibility of blood
                 products.


DBSS Versions in Use
        As of August 31, 2001, two different versions of DBSS were operational at the
        same time by Blood Program Organizations within DoD—3.01 and 3.03.11
        Version 3.03 included enhancements that added readiness reporting through
        JMAR, added an automated labeling capability, and corrected some deficiencies
        identified in previous versions of DBSS. The Blood Program Organizations that
        had not implemented version 3.03 were either not performing the functions or
        were performing them manually. Table 3 shows, by Military Department, the
        implementation of DBSS versions 3.01 and 3.03 at fixed facilities.

                               Table 3. DBSS Versions Implemented
                                       as of August 31, 2001
                                            Number of Fixed Facilities Using Version
                    Military
                   Department                      Version 3.01                    Version 3.03

                  Army                                      15                           17

                  Navy                                        5                          19
                  Air Force                                   1                          20
                    Total                                   21                           56



11
  One facility was using version 3.00; however, that facility was scheduled to close and did not have plans
 to upgrade prior to closure. Version 3.02 was released with version 3.03. All facilities that
 implemented 3.03 also implemented 3.02.



                                                    21
        Although version 3.03 was released in September 2000, 27 percent of the fixed
        facilities with DBSS still had not implemented it a year later. Specifically,
        version 3.01 was still operational at 47 percent of the Army facilities,
        21 percent of the Navy facilities, and 5 percent of the Air Force facilities. In
        addition, only 4 of the 24 TDBSS facilities had laptops loaded with DBSS
        version 3.03.


CHCS Interface
        Although the CHCS interface has been available since the deployment of DBSS
        version 3.00 in February 1999, all facilities that could be linked to CHCS were
        not. As of August 31, 2001, only 46 percent of the fixed facilities that could
        use the interface12 had turned on the capability. Specifically, 39 percent of
        Army, 42 percent of Navy, and 63 percent of Air Force facilities had turned on
        the interface capability. The interface allows medical staff to use CHCS to
        automatically submit a request for blood products to DBSS. DBSS processes the
        request and provides CHCS with test results and blood availability information.
        The purpose of the interface is to increase productivity and reduce clerical
        errors because data would only need to be entered once. Without the interface,
        data must be independently entered into both systems, increasing workload and
        possibility of error.


TDBSS Deployment
        Although each Service Blood Program Office had taken some action to deploy
        the new TDBSS laptop computers, as of August 31, 2001, TDBSS had not been
        fully implemented. Ultimately, 52 TDBSS laptops will be deployed to
        35 TDBSS facilities—21 at 13 Army facilities, 6 at 6 Navy facilities, and 25 at
        16 Air Force facilities. As of August 31, 2001, 32 laptops had been delivered
        to 24 TDBSS facilities. However, only 28, or 54 percent, of the 52 laptops
        designated for TDBSS were ready for use: 3 Army, 4 Navy, and 21 Air Force.


JMAR Reporting Capability
        JMAR upward reporting through DBSS was not complete. The Service Blood
        Program Offices did not require all Blood Program Organizations that store or
        use blood products to have either a DBSS or TDBSS capability. Some Navy
        ships and some Military Department health care providers outside fixed and
        deployable military treatment facilities will not have TDBSS laptops. To
        achieve total asset visibility of blood product inventory, all organizations storing
        or using blood products must have the capability to upward report blood product
        data from DBSS to JMAR.

12
 Not all Blood Program Organizations will use the CHCS interface. Generally, only blood donor centers
 and blood transfusion service centers generate data applicable to both DBSS and CHCS.



                                                 22
    The inconsistent deployment and use of DBSS occurred because the Blood
    Program Offices did not provide adequate oversight of system implementation.
    Additionally, Blood Program policy published by the Military Departments does
    not require the use of DBSS at all Blood Program Organizations.


Oversight of DBSS Implementation
    The Blood Program Offices did not adequately oversee the implementation of
    DBSS. They did not ensure that the latest version of DBSS was installed within
    a reasonable time frame, and they did not ensure that the CHCS interface was
    used at all applicable Blood Program Organizations. In addition, the Blood
    Program Offices did not ensure that the implementation of TDBSS was
    standardized throughout DoD and did not provide a DBSS capability at all Blood
    Program Organizations that store or use blood products.

    Implementation of New DBSS Versions. The Service Blood Program Offices
    did not ensure that the latest version of DBSS was installed within a reasonable
    time frame. Although released in September 2000, 27 percent of the fixed
    facilities were still using version 3.01 as of August 31, 2001. The Military
    Departments, as holders of separate FDA blood manufacturing licenses,
    independently oversee the implementation of system upgrades. The Air Force
    Blood Program Office was the most aggressive in requiring implementation of
    the version 3.03 upgrade by setting an implementation suspense date of
    December 15, 2000, for its fixed facilities. As of August 31, 2001, 95 percent
    of Air Force facilities had implemented the latest version of DBSS. The Navy
    Blood Program Office directed its facilities to implement version 3.03 by
    March 31, 2001. As of August 31, 2001, 21 percent of Navy facilities had still
    not implemented the latest version of DBSS. The Army Blood Program Office
    did not set an implementation suspense date for its fixed facilities and that lack
    of direction is reflected in the fact that 47 percent of the facilities had not
    implemented the upgrade as of August 31, 2001. The Military Departments
    need to establish a time frame for full implementation of DBSS version 3.03.

    CHCS Interface. The Blood Program Offices and the DBSS Project Office did
    not adequately oversee the implementation of the CHCS interface in DBSS.
    They did not require their fixed facilities to use the CHCS interface.
    Consequently, only 46 percent of fixed facilities had turned on the CHCS
    interface capability as of August 31, 2001. We understand the reluctance of
    some of the facilities to use the interface, given operational problems
    experienced by some users. Problems reported to us include having to re-enter
    data that was deleted when DBSS abruptly shut down or the creation of
    duplicate records caused by the merger of the databases of the two systems.
    However, the shortfalls must be weighed against the benefit of ultimately
    having a single entry for blood product data. A CHCS interface working
    group was addressing the interface problems and DBSS users may attend the
    working group meetings.

    TDBSS Implementation. The Blood Program Offices and the DBSS Project
    Office did not adequately oversee the implementation of the TDBSS hardware
    and software. Although the DBSS Project Office provided the Military


                                        23
        Departments with the specifications for the TDBSS laptop hardware and
        provided DBSS software, the Military Departments were responsible for the
        purchase and deployment of the TDBSS laptops. The Military Departments
        independently began deploying the TDBSS laptops in August 1999.

        The Assistant Secretary of Defense (Health Affairs) developed TDBSS to
        provide the unified commands with a blood management capability. TDBSS is
        an interim solution pending the release of the Theater Medical Information
        Program. The Theater Medical Information Program will provide theater
        commanders with an integrated health decision support system that will provide,
        among other capabilities, medical logistics information. However, until the
        Theater Medical Information Program is operational, TDBSS is the preferred
        method for providing a readiness-related blood management capability and that
        method is not functioning correctly.

        The Military Departments identified hardware and software problems with the
        deployment of TDBSS. First, the TDBSS laptops needed to be tested for
        compliance with FDA requirements. As a result of a 1999 FDA inspection, the
        DBSS Project Office determined that compliance testing was necessary.
        Because each Military Department purchased different laptops, a laptop from
        each Military Department had to be provided to Electronic Data Systems for
        testing. The DBSS Project Office could not provide a date for completion of the
        testing. As a result of the testing requirement, the Army delayed full
        deployment of its TDBSS laptops until approval of the hardware is obtained.
        The Navy and the Air Force deployed their equipment before it was known that
        FDA standards applied to the TDBSS laptops, so further action is dependent on
        the results of the compliance testing. However, the DBSS Project Office and
        the Military Departments expect the TDBSS laptops to be approved.

        Second, the Service Blood Program Offices reported that DBSS versions 3.02
        and 3.03 do not operate properly on the TDBSS laptops. Several facilities
        reported to TMSSC that they could not upgrade to versions 3.02 and 3.03.
        TDBSS users were told to continue to use version 3.01 and that there was not a
        mandate to upgrade to versions 3.02 and 3.03. The trouble tickets were closed
        and TDBSS users were informed to postpone the upgrade until a configuration
        to support the upgrade was available. If TDBSS is to be used, its software
        should be current. The problems associated with the upgrade should be
        resolved.

        Third, the Military Departments did not plan to provide a TDBSS capability at
        all of its readiness-related facilities that handle blood products. Specifically, the
        Military Departments did not plan to provide TDBSS laptops to health care
        providers outside fixed and deployable military treatment facilities and the Navy
        did not plan to provide TDBSS laptops to 10 of its ships that maintain frozen
        blood inventories.13 Instead, the Military Departments will collect blood
        product inventory and use information through a current DBSS or TDBSS user.
        For example, the Navy Blood Program Office indicated that the inventory for

13
 The 10 ships are landing helicopter-amphibious and landing helicopter-dock ships that maintain frozen
 blood inventories and could transfuse blood during wartime or contingency operation. The two hospital
 ships, USNS Mercy and USNS Comfort, are equipped with TDBSS.



                                                  24
     the ships would be managed through DBSS at the fixed facilities responsible for
     the ships’ inventory. Further, the Military Departments indicated that the lack
     of TDBSS laptops would be resolved with the eventual deployment of the
     Theater Medical Information Program. Until the Theater Medical Information
     Program is deployed, the Military Departments need to establish procedures to
     ensure that all inventory and use of blood products is reported through a DBSS
     or TDBSS capability.

     Until TDBSS is fully implemented, readiness-related Blood Program
     Organizations will not be able to provide inventory data for total asset visibility.
     Additionally, without a TDBSS capability, TDBSS facilities will not be able to
     train to perform their mobility tasks and, in the event of a war or contingency
     operation, they will be forced to use manual records for inventory and shipping
     data and will not be able to upward report that data to JMAR.


Blood Program Policy
     The Military Departments did not update published Blood Program policies to
     require DBSS or TDBSS use at all Blood Program Organizations. Specifically,
     the tri-Service Operational Procedures Manual and Handbook, the primary
     policies outlining peacetime and wartime blood processing procedures, do not
     require the use of DBSS or TDBSS, except at blood donor centers.
     Additionally, the Operational Procedures Manual directs the blood product
     depots to use an obsolete Navy automated system to maintain and manage frozen
     blood inventories. The Air Force Surgeon General issued Notice to Airmen
     99-003, “Selection, Testing, and Release of Blood Components,” April 16,
     1999, that directed the use of DBSS. However, that notice does not replace the
     need to update the tri-Service policies.


Effect of Inconsistent Deployment and Use
     As a result of the inconsistent deployment and use of DBSS, standardized blood
     product management was not achieved, workload was increased for Blood
     Program Activities, and DoD might not achieve total asset visibility of blood
     products. The workload of the DBSS Project Office increased because it had to
     maintain multiple versions of DBSS. Further, the workload increased at fixed
     facilities that had not implemented the CHCS interface, because medical staff
     had to enter data into both CHCS and DBSS independently. That not only
     increased the workload at those facilities but also increased the possibility of
     data input errors. Further, without TDBSS laptops deployed to all readiness-
     related Blood Program Organizations, DoD might not be able to adequately
     manage its supply of blood products or identify its blood inventory in the event
     of a contingency. Additionally, without updated Blood Program policy
     requiring the use of DBSS for all blood product management and inventory
     reporting, Blood Program Organizations independently and inconsistently
     determine how to manage their inventory and report inventory information.




                                          25
Management Comments on the Finding and Audit Response
    Air Force Comments. The Air Force did not concur with the finding. It did
    not agree with the number of sites reported that had installed the various DBSS
    versions, turned on the CHCS interface capability, or deployed TDBSS laptop
    computers. Further, the Air Force did not agree with our statements that
    Service Blood Program Offices had not adequately overseen the implementation
    of DBSS or the implementation of the CHCS interface capability. The Air
    Force also stated that it had been actively involved and that the statements
    should be modified to indicate that “some” of the Service Blood Program
    Offices did not adequately oversee the implementation of DBSS or the interface
    with CHCS. The Air Force stated that CHCS would not be used at the two
    Armed Services Whole Blood Processing Laboratories and that four additional
    facilities were instructed to delay the use of the capability. Accordingly, the Air
    Force felt that those facilities should not be used to determine the percentage of
    its facilities without the CHCS interface capability. In addition, the Air Force
    did not agree with our statement that it provided “little” guidance on the use and
    implementation of the TDBSS laptop computers.

    Audit Response. The numbers reported in the draft report were valid as of
    March 21, 2001. Data for the versions of DBSS in use, the number of facilities
    using the CHCS interface, and the number of TDBSS laptop computers
    deployed have been updated in the report to reflect the status as of August 31,
    2001. With regard to the CHCS interface, we noted in the report that not all
    Blood Program Organizations will use the interface and we did not include those
    facilities, such as the Armed Services Whole Blood Processing Laboratories, in
    our computations. However, we continued to include all other facilities in the
    computation regardless of the reason for the delay because, as was stated in the
    report, the capability had been present since February 1999 and was not being
    used. Because of problems identified during the audit, oversight was not
    adequate by all the Service Blood Program Offices, not just some. We deleted
    our statement that the Air Force provided little guidance on the implementation
    and use of TDBSS because the number of Air Force TDBSS laptops readied for
    use has increased since issuance of the draft report. The Air Force plans to
    activate the remaining laptops during upcoming training exercises.


Recommendations, Management Comments, and Audit
  Response
    Deleted Recommendation. As a result of management comments, we deleted
    draft Recommendation B.1.c. and updated the report accordingly.

    B.1. We recommend that the Service Blood Program Offices, in
    coordination with the Armed Services Blood Program Office and the
    Defense Blood Standard System Project Office:




                                        26
               a. Establish policy requiring a deployment execution plan for all
        future Defense Blood Standard System upgrades that includes
        implementation time frames.

                b. Establish procedures to ensure all Blood Program Organizations
        that either maintain blood product inventory or perform transfusions have a
        capability to report blood product information and inventories to the
        Defense Blood Standard System or Theater Defense Blood Standard System.

        Army Comments. The Army concurred and agreed to work with ASBPO and
        the other Service Blood Program Offices to establish execution plans and time
        frames for implementation of subsequent versions of DBSS. The Army stated
        that delays in the deployment of TDBSS were directly attributable to the failure
        of the Theater Medical Information Program to meet timelines, which required
        the Service Blood Program Offices to deploy TDBSS as an interim solution.
        TDBSS has had numerous technical and software problems that are currently
        being addressed and the corrections funded. The Army stated that when the
        problems with the TDBSS laptops are resolved, the laptops will be deployed,
        and that the prospective users will receive DBSS user and system administrator
        training.

        Navy Comments. The Navy concurred and agreed to work with ASBPO and
        the other Service Blood Program Offices to establish execution plans and time
        frames for implementation of subsequent versions of DBSS. The Navy stated
        that it plans to deploy TDBSS to the casualty receiving and treatment ships and
        fleet hospitals as part of the Theater Medical Information Program, not as a
        “stand-alone” package as TDBSS is currently designed. In addition, it stated
        that if TDBSS capabilities are required at fleet hospitals in a contingency prior
        to the implementation of the Theater Management Information Program, it will
        purchase additional TDBSS laptops for those facilities. The Navy stated that if
        the Theater Medical Information Program is not deployed, DBSS will not be
        required or practical at the echelon 2 level of care,14 even though blood will be
        stored and transfused at that level.

        Air Force Comments. The Air Force concurred with Recommendation B.1.a.;
        however, it nonconcurred with Recommendation B.1.b. The Air Force stated
        that it disagrees that a DBSS reporting capability is necessary at all facilities that
        maintain or transfuse blood products. The Air Force also stated that many of
        the facilities are remotely located and maintain small quantities of blood and,
        therefore, do not require the use of DBSS.

        Armed Services Blood Program Office Comments. ASBPO concurred and
        stated that it would work with the Services to establish execution plans and time
        frames for implementation of subsequent versions of DBSS. ASBPO also stated
        that TDBSS was deployed only as an interim measure to provide a
        year 2000-compliant system to the field until the Theater Medical Information



14
 Echelon 2 care is administered by a team of physicians or physician assistants who apply emergency
 procedures to prevent death or loss of limbs.



                                                  27
Program was deployed. Further, ASBPO stated that the Services had given
their best effort to deploy TDBSS in light of the numerous technical and
software problems associated with the laptops.

Audit Response. Army, Navy, and Air Force comments on
Recommendation B.1.a. are fully responsive. The Army and the Navy are
partially responsive and the Air Force is not responsive on
Recommendation B.1.b. Although the Army and the Navy concurred with the
recommendation, they did not address how they would provide a capability to
report blood inventory and transfusion information at facilities not equipped
with DBSS or TDBSS. The Army statement that the delayed deployment of the
Theater Medical Information Program affected the deployment of TDBSS does
not address the reporting of inventory information. Although we agree with the
Navy statement that DBSS or TDBSS may not be required or practical at the
echelon 2 facilities, it did not state how blood inventory data at those facilities
would be transmitted to DBSS. We disagree with the Air Force statement that
all facilities that maintain or transfuse blood products do not need a DBSS
reporting capability. While we agree that all facilities may not require a DBSS
or TDBSS computer, we maintain that the inventory and transfusion information
must be transmitted to an existing DBSS or TDBSS facility so that the database
remains current. We request that in response to the final report, the Army, the
Navy, and the Air Force indicate how they will provide the capability to report
blood product inventory information for those facilities not equipped with DBSS
or TDBSS computers.

B.2. We recommend that the Service Blood Program Offices establish a
time frame for their Blood Program Organizations to implement the latest
version of the Defense Blood Standard System.

Army Comments. The Army concurred, stating that it did not direct
implementation of DBSS versions 3.02 and 3.03 until standard operating
procedures were completed and validated, and a test case was completed for
JMAR. The Army stated that subsequent to DBSS standard operating
procedures being released in May 2001 it issued a directive to load, validate,
and implement DBSS version 3.03 no later than August 1, 2001. The Army
stated that because of technical and hardware problems, the deadline for full
implementation had been extended to October 1, 2001.

Navy Comments. The Navy concurred, stating that it directed that DBSS
version 3.03 be implemented by March 31, 2001. The Navy stated that it
established October 1, 2001, as a revised implementation date for its facilities
because of technical and hardware problems.

Air Force Comments. The Air Force concurred, stating that it will ensure that
an implementation time frame is established with every version release.

Armed Services Blood Program Office Comments. ASBPO concurred.

B.3. We recommend that the Service Blood Program Offices, the Armed
Services Blood Program Office, and the Defense Blood Standard System
Project Office jointly:



                                    28
         a. Develop and implement a plan to correct the software deficiencies
identified with the interface between the Composite Health Care System and
the Defense Blood Standard System and establish a time frame for the
Military Departments to implement the interface at military treatment
facilities.

       b. Develop and implement a plan to correct the hardware and
software deficiencies identified with the Theater Defense Blood Standard
System, or find another means to meet the needs of the unified commands
for a blood management capability.

Assistant Secretary of Defense (Health Affairs) Comments. The Assistant
Secretary of Defense (Health Affairs) concurred and stated that the organizations
are planning actions in concert with the recommendation.

Armed Services Blood Program Office Comments. ASBPO concurred and
stated that the Services and the DBSS Project Office will work with ASBPO to
evaluate the deficiencies identified with the CHCS interface, obtain concurrence
on patient safety issues, determine priority for correcting deficiencies, and
establish a time frame for implementation of the interface at Service facilities.

Army Comments. The Army concurred and agreed to work with ASBPO, the
other Service Blood Program Offices, and the DBSS Project Office to evaluate
the deficiencies identified with the CHCS interface, obtain concurrence as to the
patient safety issues identified, prioritize the corrections, and establish a time
frame for implementing the interface.

Navy Comments. The Navy concurred and agreed to work with ASBPO, the
other Service Blood Program Offices, and the DBSS Project Office to evaluate
the deficiencies identified with the CHCS interface, obtain concurrence as to the
patient safety issues identified, prioritize the corrections, and establish a time
frame for implementing the interface.

Air Force Comments. The Air Force concurred, stating that it will coordinate
with the other Service Blood Program Offices, ASBPO, and the DBSS Project
Office to develop corrective actions.

Audit Response. Assistant Secretary of Defense (Health Affairs), ASBPO,
Army, Navy, and Air Force comments are fully responsive on
Recommendation B.3.a., and partially responsive on Recommendation B.3.b.
Although they concurred with the overall recommendation, they did not
specifically concur with Recommendation B.3.b. to develop a plan to correct
TDBSS or to provide another suitable method of blood inventory management to
meet the needs of the unified commands. The Army, in its response to
Recommendations B.1.a. and B.1.b., stated that it was in the process of
correcting the numerous technical and software problems of TDBSS. However,
the Army did not address how it will work jointly with the other Blood Program
Offices to correct TDBSS or establish an alternative method of blood inventory
management within the unified commands. As we stated in the report and as the
Army, the Navy, and ASBPO noted in their responses to Recommendations
B.1.a. and B.1.b., TDBSS was developed as an interim measure to the Theater
Medical Information Program. However, they did not include in their responses


                                    29
    how the needs of the unified commands will be met prior to the full deployment
    of the Theater Medical Information Program. We request that in response to the
    final report, the Assistant Secretary, ASBPO, the Army, the Navy, and the Air
    Force indicate how they will work jointly to correct TDBSS or establish an
    alternative method of blood inventory management within the unified commands.

    B.4. We recommend that the Military Department Surgeons General, in
    coordination with the Armed Services Blood Program Office, update Army
    Technical Manual 8-227-11/NAVMED P-5123/Air Force Instruction 44-118,
    “Operational Procedures for the Armed Services Blood Program
    Elements,” and Army Manual 8-227-12/NAVMED P-6530/Air Force
    Handbook 44-152, “Joint Blood Program Handbook,” to require the use of
    the Defense Blood Standard System or the Theater Defense Blood Standard
    System at all Blood Program Organizations.

    Army Comments. The Army concurred and agreed to coordinate with ASBPO
    and the other Service Blood Program Offices to update the reference documents.

    Navy Comments. The Navy concurred and agreed to coordinate with ASBPO
    and the other Services to update the reference documents.

    Air Force Comments. The Air Force concurred and will coordinate with
    ASBPO, the other Service Blood Program Offices, and the DBSS Project Office
    to develop corrective actions.

    Armed Services Blood Program Office Comments. ASBPO concurred,
    stating that it will coordinate with the Services to update the referenced
    documents.


Management Comments Required
    Management is requested to comment on the items indicated with an X in
    Table 4.


            Table 4. Management Comments Required on Finding B


     Recommendation                          Concur/    Proposed    Completion
         Number           Organization      Nonconcur    Action       Date
           B.1.b.         Army                              X            X
           B.1.b.         Navy                              X            X
           B.1.b.         Air Force            X            X            X
           B.3.b.         Health Affairs                    X            X
           B.3.b.         ASBPO                             X            X
           B.3.b.         Army                              X            X
           B.3.b.         Navy                              X            X
           B.3.b.         Air Force                         X            X



                                       30
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the implementation and use of DBSS and
    TDBSS at the Joint Staff, 6 Blood Program Offices, 18 Blood Program
    Organizations (13 fixed facilities and 5 TDBSS facilities), the DBSS Project
    Office, Electronic Data Systems, TMSSC, and the JMAR Project Office. We
    reviewed management and operational aspects of the Blood Program Activities
    to determine the adequacy of DBSS in supporting the Blood Program. We
    evaluated the functionality of DBSS and its ability to meet user needs and
    regulatory requirements, the system infrastructure necessary to support DBSS,
    and the operational support and maintenance process. In addition, we examined
    the wartime use of DBSS and whether DBSS had standardized the inventory
    management of blood products throughout DoD. Because this was not an
    acquisition audit, we did not examine the acquisition process or acquisition-
    related documentation. Instead, the focus was on system sustainment issues.

    We reviewed DoD, Military Department, and unified command Blood Program
    policies and procedures and DBSS program documents. We reviewed FDA
    regulations, policies, and inspection reports. We also reviewed User and
    System Administrator Guides, validation plans, and minutes of configuration
    control board and user working group meetings. We met with DBSS users and
    system administrators and obtained standard operating procedures, training
    plans, and user concerns regarding DBSS functionality. We did not review the
    costs incurred to develop or maintain the system administrator training
    programs. For 12 of the 24 Blood Program Activities contacted, we issued
    questionnaires to supplement information about DBSS collected during the first
    phase of the audit. Using the Internet, we accessed the TMSSC trouble ticket
    database for October 2000 to validate TMSSC trouble ticket metrics reported to
    the DBSS Project Office. We compiled FY 1991 through FY 2005 actual and
    estimated life-cycle-cost data for the design, development, and support of DBSS
    from spreadsheets provided by the DBSS Project Office. We did not validate
    the cost data. Based on management comments on the draft report, we updated
    the number of DBSS versions in use, the number of facilities using the CHCS
    interface, and the number of TDBSS laptop computers deployed to reflect the
    status as of August 31, 2001. The data was verified by reconciling information
    provided by the DBSS Project Office with data provided by the Blood Program
    Offices. The documents we reviewed were dated from September 1987 through
    October 2001.

    High-Risk Area. The General Accounting Office has identified several high-
    risk areas in DoD. This report provides coverage of the DoD Systems
    Modernization and DoD Inventory Management high-risk areas.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the TMSSC trouble ticket database to determine whether TMSSC met monthly
    timeliness requirements for the processing of trouble tickets. We performed


                                       31
limited tests on the reliability of the data by testing the record counts and
categorization of the trouble tickets for 1 of the 11 months reported. We also
relied on computer-processed data from the system request tracking system to
determine whether system requests included in DBSS versions 3.02 and 3.03
were appropriately documented. We verified that the system requests posted in
the tracking system for those versions matched the system requests included in
the DBSS version release documents. We did not find errors in either system
that would preclude our use of the computer-processed data to meet audit
objectives or that would change the conclusions in this report.

Universe and Sample. Our sample included 6 of the 21 Blood Program Offices
and 18 of the 102 Blood Program Organizations that had been provided with
DBSS or TDBSS. The 21 Blood Program Offices are ASBPO, the 3 Service
Blood Program Offices, 5 Joint Blood Program Offices, and 12 Area Joint
Blood Program Offices. We selected ASBPO, the three Service Blood Program
Offices, and two of the Joint Blood Program Offices for this audit. The Joint
Blood Program Offices were from the U.S. European Command and the
U.S. Pacific Command and were selected because 91 percent of the DBSS and
TDBSS computers deployed to the unified commands were deployed to those
commands.

Of the 102 Blood Program Organizations—78 fixed facilities and 24 TDBSS
facilities—we selected 13 and 5 facilities, respectively. The judgmental
selection of fixed facilities was designed to ensure representation of all the
Military Departments and all types of Blood Program Organizations.
Accordingly, we selected 10 blood donor centers, both Armed Services Whole
Blood Processing Laboratories, and 1 blood product depot. The 10 blood donor
centers were located at military treatment facilities that also provide transfusion
services; 3 were Army facilities, 4 Navy, and 3 Air Force. We also considered
the size of the blood donor center and included at least one relatively large
facility and one small facility. Both Armed Services Whole Blood Processing
Laboratories were selected because one primarily serviced the U.S. European
Command and the other serviced the U.S. Pacific Command. The Army and
the Navy operate the blood product depots. We originally selected two blood
product depots—one Army facility that used TDBSS and one Navy facility that
used DBSS. The Army blood product depot had just received its TDBSS
computer and the personnel did not have the experience with TDBSS to
comment on its operation; therefore, we did not include that facility in our
sample. The selection of TDBSS facilities was based on the type of Blood
Program Organization. Of five facilities, three were blood transshipment
centers and two were transportable blood transshipment centers.

Audit Type, Dates, and Standards. We performed this program audit from
September 2000 through October 2001 in accordance with generally accepted
Government auditing standards except that we were unable to obtain an opinion
on our system of quality control. The most recent external quality control
review was withdrawn on March 15, 2001, and we will undergo a new review.

Contacts During the Audit. We visited or contacted individuals and
organizations within DoD, the FDA, the Veterans Health Administration, the
American Red Cross, and Electronic Data Systems. Further details are
available on request.


                                    32
Management Control Program Review
        DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
        1996, and DoD Instruction 5010.40, “Management Control (MC) Program
        Procedures,” August 28, 1996, require DoD organizations to implement a
        comprehensive system of management controls that provides reasonable
        assurance that programs are operating as intended and to evaluate the adequacy
        of the controls.

        Scope of the Review of the Management Control Program. We reviewed the
        adequacy of the management control programs for the deployment and
        implementation of DBSS and TDBSS and for DBSS training at the TRICARE
        Management Activity∗ and the offices of the Surgeons General. We reviewed
        management’s self-evaluation applicable to those controls.

        Adequacy of Management Controls. We identified material management
        control weaknesses for the TRICARE Management Activity and the offices of
        the Surgeons General, as defined by DoD Instruction 5010.40. Their
        management controls for DBSS implementation, deployment, and training were
        not adequate to ensure that DBSS was properly managed to meet requirements.
        However, in response to the FDA findings identified during its September 1999
        inspection of the DBSS Project Office, CITPO and the DBSS Project Office
        developed the “Defense Blood Standard System (DBSS) Quality Policy and
        Manual” (the Quality Manual), December 2000. The Quality Manual
        establishes management controls for DBSS in the following areas.

             •   Purchasing and Acceptance

             •   Records, Documents, and Change Controls

             •   Design Control

             •   Production and Process Controls

             •   Corrective and Preventive Action

             •   Standards and Regulations

        The controls established in the Quality Manual and Recommendations A.2.,
        A.3., B.1., B.2., B.3., and B.4., will improve management of DBSS. A copy
        of the report will be provided to the senior official responsible for management
        controls in the TRICARE Management Activity and the Military Department
        Surgeons General.




∗
 The TRICARE Management Activity, part of the Office of the Assistant Secretary of Defense (Health
 Affairs), oversees the management control program.



                                                 33
       Adequacy of Management’s Self-Evaluation. TRICARE Management
       Activity, Army, Navy, and Air Force officials did not identify the control
       weaknesses identified by the audit because they did not identify DBSS or the
       Blood Program as an assessable unit in their management control plans.


Prior Coverage
       During the last 5 years, the Inspector General, DoD, issued one report and the
       Naval Inspector General issued one report discussing the Armed Services Blood
       Program. In addition, the FDA issued one report specifically addressing the
       Defense Blood Standard System. Unrestricted Inspector General, DoD, reports
       can be accessed at http://www.dodig.osd.mil/audit/reports.


Inspector General, DoD
       Inspector General, DoD, Report No. D-2001-059, “Armed Services Blood
       Program Readiness,” February 23, 2001


Navy
       Naval Inspector General Report, “Investigation of Blood Banking Procedures at
       National Naval Medical Center, Bethesda, Maryland, and the Navy Blood
       Program,” October 8, 1998


Food and Drug Administration
       FDA Report Number 1119523, “FDA Inspection Report of Defense Blood
       Standard System Project Office,” September 13, 1999




                                          34
Appendix B. Other Matters of Interest
   Access to the JMAR Database. Access to the JMAR database is granted by the
   JMAR Project Manager or Deputy Project Manager based on a requestor’s
   “need-to-know.” However, we identified during our meeting with the JMAR
   Project Office that immediate access to JMAR was granted to any requestor with
   a “.mil” e-mail address and that need-to-know was applied only to other
   requestors. Further, the JMAR Project Office did not have a formal process to
   maintain its user list. A limited review of the JMAR user account database
   showed that several user accounts should have been deleted or changed. Two
   user accounts belonged to personnel who had retired from DoD and should no
   longer have had access to JMAR; three accounts belonged to personnel who had
   transferred and changed e-mail addresses but still had accounts under their old
   e-mail addresses; and one user had two accounts. There may be other personnel
   who should no longer have access to JMAR; however, we could only identify
   those Blood Program personnel with whom we were familiar.

   Actions Taken by the JMAR Project Office. As a result of our meeting with
   the JMAR Project Office about our concerns, the JMAR Project Office took
   some corrective action. The JMAR Project Office developed a draft policy,
   “Joint Medical Asset Repository Standard Operating Procedures User Account
   Management,” updated on June 21, 2001, that outlines the procedures for
   creating and managing user accounts. The policy includes the following
   requirements:

       •   All potential users must submit a need-to-know justification for access
           to JMAR to be reviewed by a JMAR Account Administrator.

       •   Users must review their account information every 90 days, to include
           an updated need-to-know justification.

       •   JMAR will periodically review account information to identify users
           whose account has not been used or updated, or whose password has not
           changed within a given period.

   Controls Over the JMAR Database. We commend the JMAR Project Office
   for its prompt response to our concerns. However, additional controls by the
   JMAR Project Office would further improve the management of JMAR user
   accounts. Joint Publication 4-02, “Doctrine for Health Services Support in Joint
   Operations,” April 26, 1995, states that although medical information in itself is
   not classified, medical information can become an operations security indicator
   in the context of a particular military operation. JMAR will be a very important
   database during a contingency, and access to JMAR should be strictly managed.

   The JMAR Project Office should consider implementing controls to ensure that
   during wartime or contingency operations, further limitations are established to
   restrict JMAR access to only personnel with valid, military need-to-know.




                                       35
Appendix C. Glossary
   Armed Services Blood Program. The combined military blood programs of
   the ASBPO, the individual Military Departments, and the unified commands, in
   an integrated blood program support system for peacetime, contingency, and
   war.

   Armed Services Blood Program Office. A tri-Service-staffed, joint field
   operating agency, with the Army as the DoD Executive Agent, responsible for
   coordination of the Armed Services Blood Program. Program office
   responsibilities include ensuring implementation of blood program policies, as
   established by the Assistant Secretary of Defense (Health Affairs), and
   standardization of policies, procedures, and equipment. The ASBPO is the
   overall DoD manager for blood products for the Chairman of the Joint Chiefs of
   Staff during military contingencies and, when directed by appropriate
   governmental authorities, for civilian relief efforts.

   Armed Services Whole Blood Processing Laboratory. A tri-Service-staffed
   organization, with the Air Force as the DoD Executive Agent, responsible for
   the central receipt and confirmation of blood products from the continental
   United States blood banks. The organization is also responsible for the
   shipment of those products to designated unified commands’ blood
   transshipment centers and transportable blood transshipment centers.

   Automated Blood Product Labeling System. A microcomputer and thermal
   printer-based “print-on-demand” blood product labeling system. It is a
   commercial-off-the-shelf system, which produces bar-coded and eye-readable
   full-face blood product labels, donor identification set labels, and donor
   identification cards in FDA format.

   Blood Donor Center. Military Department-staffed Blood Program
   Organization responsible for the collection and processing of blood products.
   The blood donor center may be collocated with a blood bank in a military
   treatment facility. In a unified command, a blood donor center may serve as a
   blood supply unit.

   Blood Products. A generic name for blood and blood components, including
   red blood cells (liquid or frozen), plasma (liquid or frozen), and platelet
   concentrates.

   Blood Product Depot. A Military Department-staffed organization responsible
   for the strategic storage of frozen blood products in a unified command.

   Blood Program Activities. The Blood Program Offices and Organizations
   responsible for the successful collection, storage, and distribution of blood
   products.

   Blood Program Offices. The offices responsible for managing the Blood
   Program: the ASBPO, the Service Blood Program Offices, and the unified
   command Joint Blood Program Offices.


                                       36
Blood Program Organizations. The Blood Program operational components,
including the Armed Services Whole Blood Processing Laboratories, blood
donor centers, blood product depots, blood supply units, and blood
transshipment centers.

Blood Supply Unit. A Military Department-staffed unit responsible for the
receipt and storage of blood products (liquid and frozen) from blood
transshipment centers, transportable blood transshipment centers, or blood
product depots. It is also responsible for issuing blood products to military
treatment facilities in an assigned geographic area. A blood supply unit may be
any type unit or facility designated by a Military Department.

Blood Transshipment Center. An Air Force-staffed unit responsible for
receiving blood products from an Armed Services Whole Blood Processing
Laboratory, a blood product depot, another blood transshipment center, or a
transportable blood transshipment center; re-icing the blood products; storing
the products; and issuing the products to blood supply units or military
treatment facilities.

Class II Medical Device. The designation given by the FDA for medical
devices whose safety and effectiveness requires both general and special
controls. FDA considers “blood establishment software” as a medical device.

Clinical Information Technology Program Office. CITPO is the office within
the Office of the Assistant Secretary of Defense (Health Affairs) that is
responsible for the management of DBSS.

Composite Health Care System. The worldwide, automated medical
information system supporting all military treatment facilities in providing
comprehensive, high-quality health care to Uniformed Services personnel,
retirees, and dependents. CHCS provides patient facility data management and
communication capabilities, including patient administration, reporting,
scheduling and coordination, laboratory orders, drug and laboratory test
interaction, quality control, radiology orders and test results, and medication
processing.

Cryovials. Small quantities of frozen blood that are maintained for each frozen
red blood cell unit in storage so that additional infectious disease testing can be
performed if required by the FDA.

Defense Blood Standard System Project Office. The office within the Office
of the Assistant Secretary of Defense (Health Affairs) responsible for DBSS
technical and functional management and deployment of DBSS.

Food and Drug Administration. The Government agency that establishes
blood banking regulations and requirements for use by blood banks involved in
interstate commerce and grants licenses to blood banks complying with those
standards. The organization within the FDA that specifically handles blood
banking regulations is the Division of Blood and Blood Products in the Center
for Biologics Evaluation and Research. The Military Departments comply with
those standards and each Military Department Surgeon General holds a license
for its respective blood banks.


                                    37
Joint Blood Program Office. The organization within the unified command
surgeon’s office responsible for the overall management of blood products in a
command theater of operations.

Joint Medical Asset Repository. The DoD source for joint medical logistics
information. It is a data repository designed to integrate information from
various medical logistics systems throughout DoD into a centrally managed data
warehouse that gives users the ability to see the location and status of medical
supplies and equipment whether in storage, in transit, or in theater.

Service Blood Program Office. The organization within a Military Department
responsible for the coordination and management of the Military Department’s
blood program.

System Administrator. The person(s) responsible for observing proper
security policies and procedures that are critical to maintaining DBSS. At large
facilities, those duties may be assigned to several individuals; at smaller
facilities, the duties may be assigned to one individual. The system
administrator responsibilities are split into the following four major categories.

    •   DBSS In-House Application Administrator. Responsible for
        managing user rights within the DBSS application.

    •   DBSS In-House Server Administrator. Responsible for maintaining
        the DBSS server and administering the database, performing the
        Microsoft Windows NT backup, and managing the Microsoft Windows
        NT event and audit logs.

    •   DBSS Mobile System Administrator. Responsible for managing the
        DBSS mobile server during mobile blood drives.

    •   Microsoft Windows NT Domain System Administrator. Responsible
        for maintaining the Microsoft Windows NT domain and has the
        authority to add users to the Microsoft Windows NT domain and global
        domain user groups.

Theater Defense Blood Standard System. A self-contained laptop platform for
DBSS that provides all the functional capabilities of DBSS in a theater
environment.

Tri-Service Medical System Support Center. A fee-for-service operation,
located at Brooks Air Force Base, Texas, whose mission was to provide
consulting, prototyping, integration, implementation, training, and sustainment
of medical and non-medical information systems to enhance the global capability
of DoD warfighters. With regard to DBSS, TMSSC initially handled user-
identified problems (trouble tickets). Trouble tickets handled by TMSSC
included problems with system configuration setup, minor software application
problems, and errors that did not affect the operational or mission-essential
functions of DBSS.




                                    38
Trouble Ticket. A record of a problem identified to TMSSC by an end-user,
including software application errors, hardware problems, database errors, and
“table build” problems.




                                   39
Appendix D. Original Functional Requirements
   Based on our review of the requirement documents for DBSS, we identified five
   functions included in the initial system design for DBSS versions 1.00 or 2.00
   that still had not been incorporated into DBSS by version 3.03 (the latest version
   released in September 2000).

   Global Donor Deferral. A global donor deferral capability would allow DoD
   blood donor centers to determine whether potential blood donors had been
   permanently or temporarily deferred from donating blood at any DoD Blood
   Program Organization. DBSS will identify and flag deferred donors, but the
   capability is limited to each individual facility. That limitation is significant for
   DoD because the DoD population is transient and could donate or receive blood
   products at many different locations. The advantages to having a global donor
   deferral capability is that it could reduce the time necessary to identify deferred
   donors, reduce unnecessary infectious disease testing, and save time spent by
   technicians in collecting and processing blood products that may ultimately have
   to be destroyed. In addition, the capability could decrease the possibility of the
   release of an inappropriate blood product. A global donor deferral capability
   was identified as an initial requirement for inclusion in DBSS version 2.00 and
   the required completion date was September 1999 in the “Medical Readiness
   Strategic Plan 1998-2004” (the Strategic Plan), August 1998. The global donor
   deferral function has been funded for development in FY 2002 and FY 2003.

   Global Lookback. A global lookback capability would allow the tracking of
   blood product disposition, blood donors, and blood recipients from a centralized
   location. The FDA requires a lookback capability to identify all donors and
   recipients of possibly infectious blood and any blood products that may have
   been donated by those individuals. It is performed for blood products that have
   tested positive for the human immunodeficiency virus, the hepatitis C virus, or
   the human T-lymphotrophic virus type-1. Currently, if a lookback must be
   performed, DBSS must be searched at every applicable facility to determine the
   source and recipients of the infectious blood products to ensure that the spread
   of the disease is contained and the recipients are treated. The advantages to
   having a global lookback capability are that it reduces the time necessary to
   search for blood products, donors, and recipients and could decrease the
   possibility of the release of an inappropriate blood product. A global lookback
   capability was identified as an initial requirement for inclusion in DBSS
   version 2.00 and the required completion date in the Strategic Plan was
   September 1999. The global lookback function has been funded for
   development in FY 2002 and FY 2003.

   Interface With Laboratory Testing Equipment. The capability to record
   laboratory test results in DBSS through the use of an interface with the
   laboratory testing equipment would reduce the need for the manual entry of
   more than one million infectious disease test results annually. Some of the
   blood donor centers perform their own testing; however, most infectious disease
   testing is performed at centralized DoD or contractor testing sites that transmit




                                        40
the test results back to the blood donor center by facsimile. DBSS requires the
test results to be entered twice and if there are any discrepancies between the
data entered they must be reconciled. An automated interface with the testing
equipment, whether the testing is performed at the blood donor center or at
another site, would reduce the possibility of manual entry errors and reduce the
risk of releasing inappropriate blood products. In addition, since a blood
product cannot be released until test results are entered, the interface could
allow for faster release of blood products for transfusion or shipment. The
laboratory testing interface was identified as an initial requirement for inclusion
in DBSS version 1.00 and the required completion date in the Strategic Plan was
March 1999. The function has been funded for development in FY 2002 and
FY 2003.

Accurate, Timely, and Readily Available Reports. Accurate, timely, and
readily available reports would reduce the need to manually create reports for
internal and external uses. The 13 fixed facilities we contacted during this audit
all reported problems with DBSS reports. Users stated that the DBSS reports
did not provide sufficient information for inventory management or planning
purposes. In addition, only 1 of 13 fixed facilities contacted had successfully
generated an accurate feeder report for the DD Form 2555, “Blood Bank
Operational Report,” the quarterly report that contains all blood inventory and
operations data for a Blood Program Organization. The Blood Bank Operational
Report is the primary operational report for the Blood Program; the report data
is consolidated by the Service Blood Program Offices and forwarded to the
ASBPO. The ability for DBSS users and Blood Program management to obtain
accurate and timely reports from DBSS would reduce the time necessary to
compile report data and reduce possible reporting errors due to the manual
recording of data or manual calculations. The need for accurate, timely, and
readily available reports was identified as an initial requirement for inclusion in
DBSS version 1.00 and, although past system updates contained changes to
reports, the problems had not been completely resolved by version 3.03. Of the
729 outstanding system requests, 90 concern DBSS reporting. However, as of
May 2001, there were no report-related system requests approved for
development or funding. The DBSS Project Office plans instead to survey the
user community for reports created at individual Blood Program Organizations
that could have universal benefit to all users.

Cryovial Shipment and Storage Management. A cryovial shipment and
storage management capability in DBSS would ensure that a cryovial can be
easily identified and traced to its corresponding frozen red blood cell unit.
Currently, cryovial inventories are maintained on various database programs,
not DBSS, while frozen red blood cell inventories are maintained on DBSS.
The cryovial inventory reports and DBSS frozen red blood cell inventory reports
do not contain identical data, which makes it difficult to reconcile the two
reports. A reconciliation of the reports is necessary to update the cryovial
inventory when frozen red blood cell units are destroyed, used for training
purposes, or shipped to another location. A cryovial shipment and storage
management function in DBSS would ensure that the data reported for a frozen
red blood cell unit and its cryovial are identical and would expedite the process
of identifying cryovials for testing or for destruction. Cryovial shipment and
storage management was identified as an initial requirement for inclusion in



                                    41
DBSS version 1.00 and, in November 1994, subsequent to the deployment of
DBSS version 1.00, a system request was submitted for the function. As of
June 2001, the system request had been approved, but was assigned a low
priority.




                                 42
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)
  Director, TRICARE Management Activity
  Director, Armed Services Blood Program Office

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Surgeon General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Surgeon General, Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General, Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                         43
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                         44
Assistant Secretary of Defense (Health
Affairs) Comments




                      45
46
47
Armed Services Blood Program
Office Comments




                   48
49
Final Report
 Reference




      Deleted




                50
51
Department of the Army Comments




                  52
53
Final Report
 Reference




      Deleted




                54
55
56
Department of the Navy Comments




                   57
58
     Final Report
      Reference




     Deleted




59
60
61
Department of the Air Force Comments




                   62
     Final Report
      Reference




     Page 14




     Revised
     Page 21
     Table 3




63
Final Report
 Reference




     1
     Revised
     Page 22




     2
     Revised
     Page 22

     Page 23




     Page 23




         Deleted




              1
                  An Air Force update provided October 9, 2001, changed 93 percent to 63 percent, which is reflected in
                  the report.
              2
                  An Air Force update provided September 18, 2001, changed 20 to 21, which is reflected in the report.



                                                                   64
     Final Report
      Reference




     Page 18




     Page 18




     Page 27




     Page 27




     Deleted




65
Final Report
 Reference




     Page 28



 Pages 29-30




               66
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Michael A. Joseph
Betsy Brilliant
Carol N. Gorman
Daniel S. Battitori
Daniel S. Bowers
Major Mark A. Vojtecky, U.S. Air Force
